<html>
<title> - OVERSIGHT OF THE STATE DEPARTMENT AND AGENCY FOR INTERNATIONAL DEVELOPMENT FUNDING PRIORITIES FOR THE WESTERN HEMISPHERE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                  OVERSIGHT OF THE STATE DEPARTMENT AND
                  AGENCY FOR INTERNATIONAL DEVELOPMENT
                       FUNDING PRIORITIES FOR THE
                           WESTERN HEMISPHERE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                           Serial No. 114-27

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
93-912PDF                     WASHINGTON : 2015                          
                               
________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  
                             
                              
                                 
                                                                  
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
TOM EMMER, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Roberta S. Jacobson, Assistant Secretary, Bureau 
  for Western Hemisphere Affairs, U.S. Department of State.......     4
Ms. Elizabeth Hogan, Acting Assistant Administrator, Bureau for 
  Latin America and the Caribbean, U.S. Agency for International 
  Development....................................................    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Roberta S. Jacobson: Prepared statement............     6
Ms. Elizabeth Hogan: Prepared statement..........................    13

                                APPENDIX

Hearing notice...................................................    34
Hearing minutes..................................................    35

                   OVERSIGHT OF THE STATE DEPARTMENT
                      AND AGENCY FOR INTERNATIONAL
                     DEVELOPMENT FUNDING PRIORITIES
                       FOR THE WESTERN HEMISPHERE

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11 o'clock a.m., 
in room 2255 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (acting chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
Chairman Duncan is attending to a family emergency and has 
asked me to chair today's meeting in his place. We wish him and 
his family well.
    After recognizing myself and my good friend, Ranking Member 
Sires, for 5 minutes, each for our opening statements, I will 
then recognize other members who might seek recognition for 1 
minute. We will then hear from our witnesses.
    Thank you ladies for being here. Without objection, the 
witnesses' prepared statements will be made a part of the 
record. Members may have 5 days to insert statements and 
questions for the record subject to the length limitation in 
the rules. The chair now recognizes herself for 5 minutes.
    As we scrutinize the Fiscal Year 2016 budget proposals for 
the Western Hemisphere, we must fully analyze how we are 
advancing U.S. interests in the region. While the 
administration may condemn human rights violations, attacks on 
the press, and biased judicial systems, it still continues to 
placate to rogue regimes in the Hemisphere who face zero 
consequences.
    In Nicaragua, Daniel Ortega is running for a third term 
after pushing through constitutional changes to allow 
consecutive re-elections in violation of the Nicaraguan 
constitution. Ortega is using the facade of the Canal Project 
to be able to fund money to his own pockets and possibly 
expropriate lands along the canal. In December, the Nicaraguan 
people who live along the canal protested the project and were 
met with repression and violence at the hands of the Ortega 
regime. Ecuador's Rafael Correa and Bolivia's Evo Morales are 
already in their third terms after manipulating the 
legislatures and rewriting the constitution and election laws 
in their countries for their own political agenda. At the same 
time, Correa and Morales have kicked out USAID in their 
countries causing USAID to be timid in closed societies 
throughout the Hemisphere and hurting its mission.
    Argentina's Cristina Kirchner is currently being 
investigated for her possible involvement in covering up Iran's 
role in the 1994 AMIA bombing even as more questions arise 
surrounding the murder of Alberto Nisman.
    And in Venezuela, Nicolas Maduro has run the economy almost 
completely into the ground while quashing dissent, violating 
the human rights of the Venezuela people on a daily basis. 
Although Maduro and his thugs have finally been sanctioned by 
the administration, it only occurred because this committee and 
Congress strongly pushed for those punitive actions to be 
taken.
    The common theme in all of these countries, other than the 
greed, corruption, and thirst for power, is the manner in which 
these leaders have stayed in control and suppressed civil 
society. It is a playbook learned from Cuba, the same Cuba with 
which the President has reversed decades of U.S. policy and has 
given away almost all of our leverage in return for nothing.
    Dictators in the region have learned from and studied the 
methods of the Castro brothers. They have learned how to 
control the media, silence the opposition, and they have 
learned how to impose their will by instilling fear in people. 
They have learned the elections, even corrupt and illegitimate 
elections, are often enough to appease the international 
community and for critics to look the other way, knowing that 
once they are in power they can just change the rules of the 
game without consequences.
    They know that the Organization of American States despite 
its inter-American democratic charter will do nothing to hold 
them accountable. And they know that the Obama administration 
will continue trying to appease and engage, hoping that if they 
keep playing nice then maybe these tyrants will stop taking 
advantage of them.
    People in Latin America are crying out for the United 
States to finally stand up and say loudly and clearly that we 
know that leaders are manipulating the democratic process and 
are repressing fundamental human rights, and they want us to do 
everything in our power to hold those leaders accountable.
    As we examine the budget, I am concerned that it does not 
reflect those priorities. Democracy and governance programs in 
Latin America are always on the chopping block when funds are 
needed at State and USAID and this is unacceptable.
    In Central America I question whether or not our Embassies 
and host countries are prepared to handle such a large increase 
in funding from one fiscal year to another. In Cuba, I am 
concerned that the $20 million requested by the administration 
will be undermined by the misguided normalization talks, and 
the implementation of these democracy programs may be in 
jeopardy due to the demands from Havana.
    In Venezuela that is desperately and increasingly in need 
of assistance, I am concerned that the administration has not 
requested more resources to help civil society. In Haiti with 
elections around the corner, I do not understand why we cut 
INCLE funds in half when so much assistance is needed for the 
Haitian National Police as we gear up for the upcoming 
elections.
    We must ensure that we are funding priorities and 
addressing the root causes of problems throughout the 
Hemisphere on the governance and security fronts. Drug 
trafficking is a key piece of terrorist financing and we must 
have reliable partners with whom we can work to disrupt 
narcoterror networks and transnational criminal groups.
    The administration must work harder to hold bad actors 
responsible, whether that is through increased pressure at 
international organizations, through bilateral relations or 
additional sanctions and blocking of assets. And we should be 
stepping up our democracy and governance programs in response 
to regional challenges rather than withdrawing when the going 
gets tough.
    And with that, I am pleased to yield to my good friend from 
New Jersey, the ranking member Mr. Sires.
    Mr. Sires. Thank you, Madam Chair, for holding this 
hearing, and thank you to our witnesses for being here to talk 
about the administration's Fiscal Year 2016 requests for Latin 
America and the Caribbean. Today's hearing occurs at a time of 
complex foreign policy challenges in a region that has evolved 
to become increasingly less reliant on the United States.
    While I do not believe that the U.S. is implicitly 
attempting to disengage from the Western Hemisphere, years of 
focus elsewhere have come at the expense of our policy toward 
the Americas. However, recent turmoil throughout the region, 
including growing instability in the Northern Triangle and the 
Venezuelan Government's hostile and violent actions toward its 
own civilians, has prompted us to take a closer look at our own 
backyard. I am pleased that the administration's Fiscal Year 
2016 request of nearly $2 billion represents a 35-percent 
increase over the Fiscal Year 2014 level.
    It is imperative that we strike a balance between citizen 
security initiatives and traditional development programs that 
can ensure peace and economic prosperity. Drug trafficking and 
organized crime that plagues the Northern Triangle of Central 
America is wreaking havoc in the region and poses security 
threats for the entire Hemisphere, especially the U.S.
    Disparity is abundant with nearly 30 percent of the 
region's population living in poverty. Each year hundreds die 
along the southern border in their aspiration for a better life 
crossing into the U.S. while others remain threatened by cartel 
violence. With the exception of Cuba, democracy in the 
Hemisphere has progressed but is still threatened by organized 
crime and leaders that have abused executive powers.
    Every day in Venezuela, anti-government demonstrators 
continue to express their frustrations with the deteriorating 
economic, political, and security conditions in their country. 
Venezuela continues unabashedly to respond with a heavy hand, 
backtracking from any progress they had made as to 
strengthening its democratic institution. We must work together 
in a bipartisan fashion to ensure that increased budget 
requests are used efficiently with proper oversight and address 
root causes of violence and the dysfunction in this region. And 
I thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    And so now we would like to welcome our witnesses. We are 
so proud of our witnesses today. We welcome back a good friend 
of all of us in the Foreign Affairs Committee and especially 
this subcommittee, Assistant Secretary of State for Western 
Hemisphere Affairs Roberta Jacobson. Assistant Secretary 
Jacobson previously served as Principal Deputy Assistant 
Secretary for Western Hemisphere Affairs, senior coordinator 
for the Citizen Security Initiatives in the Western Hemisphere, 
and Deputy Assistant Secretary for Canada, Mexico and NAFTA 
issues for the Bureau. Welcome, Roberta.
    We also want to welcome another good friend, Acting 
Assistant Administrator Elizabeth Hogan with USAID's Latin 
America and Caribbean Bureau. Ms. Hogan is also serving as 
Senior Deputy Assistant Administrator for the region and has 
previously served as director of the Haiti Task Team. Welcome 
back.
    So Ms. Jacobson, we will begin with you. Madam Ambassador.

   STATEMENT OF THE HONORABLE ROBERTA S. JACOBSON, ASSISTANT 
    SECRETARY, BUREAU FOR WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Jacobson. Thank you, Madam Chair. Thank you very 
much for this opportunity to testify on the Fiscal Year 2016 
request for U.S. assistance to the Western Hemisphere. Madam 
Chair, I know that you and members of this subcommittee are as 
pleased as I am that by almost every available metric the 
United States remains an influential actor and vital partner in 
the region because we all recognize the importance of this 
Hemisphere to our national interest.
    The Obama administration's policy aims to forge equal 
partnerships with the countries of Latin America and the 
Caribbean that build on the promising destiny of this 
Hemisphere based first and foremost on shared values.
    I would like to submit my written testimony for the record 
and not take up much of your time to get to your questions.
    Ms. Ros-Lehtinen. Without objection.
    Ambassador Jacobson. Our top priorities in the region, jobs 
and prosperity, education and innovation, energy cooperation, 
and promoting democratic values have a direct impact on the 
daily lives of Americans. We are focused on improving citizen 
security with more comprehensive policies that better the lives 
of our citizens with lessons learned at home and in Latin 
America and the Caribbean, whether it is in Silicon Valley on 
innovation or Colombia on citizen security. Thus, the 
administration's 2016 foreign assistance request for the 
Western Hemisphere is a 34.7-percent increase from 2014.
    We realize that in areas of the Americas there were needed 
additional sustained attention if they were to achieve some of 
the remarkable growth and social progress we have seen 
elsewhere. Just over half the total request supports the U.S. 
strategy for engagement in Central America. Last summer's spike 
in migration was a clear signal that serious and longstanding 
challenges in Central America remain and may be worsening. To 
change this trend we must address the underlying factors 
driving migration or be prepared for this tragedy to repeat 
itself ad infinitum with ultimately higher impact and cost to 
the United States.
    Over the past years of implementing our Central America 
Regional Security Initiative, we have learned a great deal 
about what works and what doesn't work on security in Central 
America, and our $1 billion assistance request for Central 
America builds on all of that knowledge. It represents a 
significant increase from previous years, but what we know for 
certain is that the cost of investing now in Central America's 
security and prosperity pales in comparison to the cost of 
addressing migration challenges here at home.
    Beyond Central America it would be shortsighted even in 
tough budget times not to maintain investments in priority 
programs that are working. For Mexico, the request includes 
$119 million to continue support for the Merida Initiative. 
Mexico was a critical partner last summer in the effort to stem 
the flow of migration to the United States and nearly every 
week it captures important drug traffickers, but serious 
security challenges have persisted and therefore our request 
advances Mexico's efforts to strengthen the rule of law, combat 
corruption and protect human rights.
    In Colombia, all eyes are on whether the peace process can 
bring an end to Latin America's longest running conflict but we 
can't take our eye off the ball, and so our request includes 
$288.7 million to support Colombia's efforts to secure the rule 
of law and support sustainable development.
    We must continue our efforts in the Caribbean or our third 
border. Our request includes $241.6 million for Haiti and 
$53\1/2\ million for the Caribbean Basin Initiative to reduce 
rates of crime and violence which threaten both the U.S. and 
Caribbean security.
    Peru is now the world's largest producer of cocaine, and 
the government will need our help to change that trajectory. 
Last year I visited coca fields being eradicated and 
alternative development projects where a decade ago when I 
served in Peru no American could venture due to the danger of 
leftist violence. And I know that we have an unusual 
opportunity of government political will, a model proven to 
work and local populations eager for our help.
    This request maintains important support for freedom of the 
press, human rights and democracy in the Hemisphere, including 
in those states in which we have seen the greatest backsliding. 
U.S. assistance that supports our policy makes a direct 
difference in the lives of citizens throughout the Hemisphere 
and benefits the national interests of the United States. And I 
look forward to your questions, thank you.
    [The prepared statement of Ambassador Jacobson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Ms. Ros-Lehtinen. Thank you.

      STATEMENT OF MS. ELIZABETH HOGAN, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Hogan. Thank you very much, Madam Chairman, Ranking 
Member Sires, and Congresswoman Kelly. Thank you for the 
invitation to testify before you today and thank you for the 
committee's continuing support for USAID's work in Latin 
America and the Caribbean.
    As Acting Administrator Lenhardt testified before you last 
week, USAID's mission across the globe is to partner to end 
extreme poverty and promote resilient democratic societies. 
USAID assistance has helped many countries of the region 
achieve these goals. However, despite major progress in some 
countries, social development and economic growth have been 
stymied by the dramatic rise in crime and violence in the 
Northern Triangle countries of El Salvador, Guatemala, and 
Honduras. This increase in violent crime is rooted in deep-
seated social and economic inequality. It has been fueled by 
increases in gang violence and transnational crime.
    In order to help Central American governments reverse these 
trends, the U.S. Government has developed an interagency 
strategy for the region that advances three interrelated 
objectives--prosperity, security and governance. The 
President's $1 billion request reflects our shared belief that 
the United States and Central America need a deeper partnership 
to tackle insecurity, endemic poverty, and weak governance that 
impacts our own national security.
    First, we must increase support for broad based economic 
growth. This support includes improving the enabling 
environment for businesses to invest and grow, advancing trade 
and regional integration, increasing financing for small and 
medium enterprises, and connecting small scale farmers to the 
markets. It also includes a focus on employment programs for 
disadvantaged youth. Last year I heard from youth in the region 
about how USAID programs are increasing their security, 
expanding employment opportunities, and giving them an 
alternative to gang life or illegal migration.
    But beyond these anecdotal testimonies we know that our 
citizen security programs are working. An independent 
evaluation concluded that fewer robberies, murders, and 
extortions are reported in the neighborhoods where USAID is 
working compared to the control group of similar communities 
where we are not. We now need to help governments and the 
private sector take these programs to scale in order to achieve 
longstanding national impact and national ownership.
    At the national level we will provide assistance to 
strengthen the effectiveness, transparency, and accountability 
of the institutions that are charged with growing the economy, 
generating revenue, creating jobs, delivering basic services, 
ensuring justice and public safety, and protecting human 
rights. While the challenges ahead are great, we believe the 
time is right as governments of the Northern Triangle commit 
themselves to specific time bound policy changes that are 
needed to justify this increased investment.
    Democracy, human rights, and good governance continues to 
be a high priority for USAID particularly in those countries 
where basic civil rights are repressed. Our programs in these 
closed political spaces support and empower civil society and 
media organizations to build their networks, advocate for 
citizen-led reforms, and push for greater government 
transparency, accountability, and effectiveness.
    Another continued priority is our work to help the Haitian 
people build a more prosperous and secure future. We can report 
that in spite of a very difficult political environment, 
meaningful progress in Haiti is indeed occurring especially in 
the areas of health, agriculture, and small business 
development. For example, 70,000 farmers have increased yields 
and incomes as a result of USAID assistance.
    Finally, we will continue to prioritize, mitigating the 
economic and social challenges that derive from the harmful 
effects of climate change. Droughts in Central America and 
extreme weather events in the Caribbean are linked to rising 
levels of food insecurity and deeper levels of poverty due to 
the loss of crops, infrastructure, and income. By adapting and 
mitigating the negative impacts of climate change, communities 
will become more resilient and better able to protect their 
investment.
    There is also a very positive trend in the region as the 
private sector is starting to see that development is good for 
business. In the past 2 years, USAID has leveraged over $350 
million in private sector resources to complement our 
investments in development. Partnerships with U.S. companies 
like Chevron, Hanes, Cisco, Intel, and Microsoft all play a 
vital role in our citizen security work providing education, 
training, and employment opportunities for at-risk youth.
    Increased evidence of political will coupled with proven 
strategies for success make a compelling case for increased 
investment that will improve the security and prosperity of the 
region and at home. Thank you for your time and I look forward 
to your questions.
    [The prepared statement of Ms. Hogan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Thank you to both of 
our witnesses for being here and for your testimony and your 
written remarks.
    Before I begin my question, on behalf of Chairman Duncan I 
would like to state that the State Department and U.S. Agency 
for International Development, USAID, did not provide this 
committee, for the Fiscal Year 2015, country and regional 
funding estimates for Western Hemisphere countries nor updates 
on allocated funds or disbursed funds, even though the 
committee staff requested multiple times that your agencies 
provide this information. If you could please make a note of 
that.
    The subcommittee is also requesting the remaining funds in 
the pipeline for major programs such as the Mexico Merida 
Initiative, the Central America Regional Security Initiative, 
and the Caribbean Basin Security Initiative. We would like to 
reiterate publicly those requests for this information, if you 
could get it to the subcommittee promptly.
    I would also like to add that at last week's full committee 
hearing I asked USAID to provide the committee with a breakdown 
of how much foreign aid in the Western Hemisphere is going 
directly, specifically, toward democracy and governance 
program. So thank you, both of you ladies, for heeding those 
requests.
    I have some questions on Cuba, on Venezuela, and closed 
societies. Assistant Secretary Jacobson, as you know, one of 
the three laws with which the Secretary of State designates a 
state sponsor of terrorism is the Export Administration Act. It 
defines a state sponsor of terrorism as one which has 
``repeatedly provided support for acts of international 
terrorism'' to include ``the recurring use of any part of the 
territory of the country as a sanctuary for terrorists or 
terrorist organizations.''
    So I ask you, does the Cuban regime provide a sanctuary for 
the FARC and ETA?
    Ambassador Jacobson. Thank you, Madam Chair. We certainly 
have said that they have in the past, and we are undertaking 
the review now as to whether that has continued.
    Ms. Ros-Lehtinen. What would lead you to believe that it 
has not continued?
    Ambassador Jacobson. Well, I think one of the things that 
we would be looking at is what the situation is right now, and 
certainly we would be consulting as well as looking at our own 
information with the governments from which those groups come, 
the Governments of Colombia and of Spain from which those 
organizations come, and as well as looking at our own 
information. But we have to look at all of the information that 
we can gather on whether or not sanctuary is provided to 
terrorist organizations.
    Ms. Ros-Lehtinen. Do we consider FARC to be a terrorist 
organization?
    Ambassador Jacobson. I believe they remain on the terrorist 
list, but as you know they are also involved in peace talks 
with the Colombian Government.
    Ms. Ros-Lehtinen. And do we consider ETA to be a terrorism 
organization?
    Ambassador Jacobson. I honestly haven't checked whether 
they are still on the terrorist list. They may well be. They 
also have given up military operations and there have been some 
dialogues with the Cuban Government by the Spanish Government.
    Ms. Ros-Lehtinen. And has Spain requested some of those 
individuals who have been involved in activities against their 
government to be sent back to Spain to stand trial?
    Ambassador Jacobson. It is my understanding that there have 
been some requests for extradition.
    Ms. Ros-Lehtinen. And probably that request is because 
Spain considers them to be terrorists.
    Ambassador Jacobson. There are judicial actions against 
some members of that----
    Ms. Ros-Lehtinen. Right. I would say that the Cuban regime 
provides sanctuary for FARC and ETA, and I don't know how else 
that could be classified. But we look forward to getting that 
review from you.
    Is the Cuban regime providing safe haven and granting 
political asylum to U.S. fugitives like JoAnne Chesimard who is 
on the Most Wanted Terrorist list of the United States?
    Ambassador Jacobson. Well, it is my understanding that 
JoAnne Chesimard has been in Cuba for many years, and they 
certainly have provided her--she has been living there for a 
long time. I don't know exactly what her status is there but--
     Ms. Ros-Lehtinen. But the U.S. does consider her, she is 
placed on the Most Wanted Terrorist list.
    Ambassador Jacobson. She is on the FBI's Most Wanted list. 
I am sorry, but you will have to ask the FBI or the Justice 
Department whether that is per classification there. She is 
wanted for homicide, I know, certainly. I am certainly familiar 
with the case and we have raised it with the Cubans every time 
we see them. We will continue to----
    Ms. Ros-Lehtinen. And was the Cuban regime caught red-
handed sending weapons to North Korea in a North Korea frigate 
in violation of U.N. international sanctions?
    Ambassador Jacobson. Certainly with that incident we 
certainly have, that incident did occur with a North Korean 
freighter that was carrying weapons. It was carrying weapons 
from, and arms and defense materials from Cuba.
    Ms. Ros-Lehtinen. In violation of international, U.N. 
international----
    Ambassador Jacobson. U.N. Sanctions Committee did say that 
that was a violation of the sanctions regime and sanctioned the 
company and the ship.
    Ms. Ros-Lehtinen. So it is hard to not conclude, because 
the definition in our law as a state sponsor of terrorism, one 
which has repeatedly provided support for acts of international 
terrorism to include the recurring use of any part of the 
territory of the country as a sanctuary for terrorists or 
terrorist organizations, and it seems like those are very good 
examples of how Cuba does fall into that category. Where are 
you in your analysis of Cuba's inclusion on the state sponsor 
of terrorism list?
    Ambassador Jacobson. Well, I think at this time all I can 
say is that we are continuing that review. We expect to 
complete that in the next couple of months. The President, as 
you know, asked the Secretary to do that review and complete it 
within 6 months of when the President made his announcement in 
December, and so we are undertaking that with very due 
diligence and thoroughness. As you know and you have cited, the 
law is fairly specific. And so we are in the middle of that 
review.
    Ms. Ros-Lehtinen. So because the law is very specific, I 
would think that the administration plans to sidestep these key 
parts of the law in order to lift Cuba from the list. In other 
words, we are going to say FARC is not a terrorist 
organization; JoAnne Chesimard, Most Wanted Terrorist list, 
that is the list she is on; Cuba violated international 
sanctions, so we are going to re-look at those and classify 
them in a different way in order to justify----
    Ambassador Jacobson. We certainly plan to complete the 
review, and whatever decision is made it will fully comply with 
the law.
    Ms. Ros-Lehtinen. Not the law as it is written, just as the 
way that we are now looking at those very groups that before 
were terrorists and now are part of a peace deal, so no longer 
terrorists, for example, in the case of the FARC.
    Ambassador Jacobson. Well, I don't know that I would 
qualify them as terrorists or not terrorists. They are still on 
the foreign terrorist organization list, but they are also 
engaged in a peace process. So I think that that has to be 
taken into consideration in a consultation, obviously with the 
Colombian Government. But as I say, the review is undertaken 
and will be completed, and any report that is done pro or con 
in terms of the list will be done in compliance with the law.
    Ms. Ros-Lehtinen. Thank you so much. I have other 
questions, but I want to turn to Mr. Sires and then we will do 
a second round. Mr. Sires is recognized.
    Mr. Sires. Thank you, Madam Chair. Since I have been in 
Congress I have been an advocate for the Western Hemisphere. I 
have felt that we have kind of ignored this Hemisphere over the 
years. And as I sit here and I hear how we are developing 
democratic principles in these countries and the progress we 
are making, and all these things that I hear that are great 
coming from both of you, I look, in my perspective I look at 
Venezuela. I mean you can't call that a democracy anymore.
    Ms. Hogan. No.
    Mr. Sires. I look what is happening in Ecuador. He wants to 
run. I look at what is happening in Nicaragua. It is a mess. 
Ortega was a big defender of the farmers and now he is beating 
the farmers up because he wants to take their land away from 
them. I look at what is going on in Brazil, demonstrations 
everywhere.
    So I guess my question to you is where is all the positive 
stuff that you are talking about? I mean all these leaders, 
they just want to perpetuate themselves and they take over the 
courts; they put their own people in. I mean it is like a 
textbook effort, you go from one country to the other. And the 
one I have to give credit to is Uribe. I mean he ran his two 
terms, he did his job well, and then he did not insist on 
running a third term. He turned it over democratically. So I 
give Colombia a great deal of credit. I mean they are an 
example for the rest of the countries in South America, Central 
America. But the rest, it is a mess.
    Ambassador Jacobson. Can I just make----
    Mr. Sires. Yes, absolutely. You can----
    Ambassador Jacobson. I am sorry. I will be quick. But I 
would argue even the last example you used, Congressman. And I 
really do want to thank you and all the members of this 
committee and the chairwoman for the support you have given to 
the region and the attention you have given it.
    But in Brazil they are going through enormously difficult 
times and the Petrobras scandal has been hugely difficult, let 
us just say. But the protests----
    Mr. Sires. It is huge.
    Ambassador Jacobson. And huge. But the protests you have 
seen in many ways are a reaffirmation of democracy. And the 
response in terms of anti-corruption legislation are a response 
to the voices of people in the streets. The Pacific Alliance 
and the countries of Mexico, Peru, Colombia and Chile moving 
forward on free trade, opening their economies even further 
engaging with the rest of the world, I think, is an extremely 
positive story.
    So I think there are still very positive stories in the 
Hemisphere, quite a few of them both on the political side and 
on the economic side, even while many of the examples that you 
listed you are absolutely right on.
    Mr. Sires. And I look at what is happening between Haiti 
and the Dominican Republic. This issue of whether you are 
Dominican or not and you go back, to me that is--they were in 
my office the other day trying to explain to me that this is 
necessary because of what is happening between the borders. I 
worry. And I have to say, and I don't want to get away from 
Nicaragua, but I had a group of civil groups in my office just 
this past week. They are telling me that things are getting so 
bad in Nicaragua they are concerned about the election that is 
coming up in 3 years. They are telling me that people are 
taking up to arms on the hills already. Have you any 
confirmation of that? They are telling me that some groups are 
already in the jungles. Is that accurate?
    Ambassador Jacobson. I have not heard that. But I can tell 
you that the concerns of citizens over the process that has 
been undertaken whether it is for the canal and land concerns, 
environmental concerns as well as concerns on elections at the 
local and national level are very, very serious. And these are 
concerns that we are watching as well as concerns of neighbors 
about Nicaruaga.
    Mr. Sires. And obviously my last question I will bring you 
back to Cuba. We have $20 million for more democracy in Cuba. 
How much pressure are you getting to stop those programs in 
Cuba in these negotiations that you are going through?
    Ambassador Jacobson. Well, I don't think it is any surprise 
that Cuba doesn't like those programs, so I wouldn't say we are 
under enormous pressure.
    Mr. Sires. Are we making concessions on those programs?
    Ambassador Jacobson. We have said from the beginning that 
those programs are not, we are not going to be ending those 
programs, so we are moving ahead.
    Mr. Sires. All right. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you. Thank you so much.
    Congresswoman Kelly, my good friend from Illinois.
    Ms. Kelly of Illinois. Thank you. I had a couple of 
questions. You talked about, even though I know there is a lot 
of work to do, but you talked about where you have been 
successful as far as stopping or slowing down gang violence, 
and economic growth and those kind of things. I was just 
curious. Do you have a certain playbook that you follow or 
guidelines and things like that?
    And the reason I ask that question is because of some parts 
of the Chicago-land area that I cover and some of the very 
problems you are talking about we have every day in Chicago. 
And I believe it was today, or maybe yesterday, I read eight 
shot, four dead. You know the story, I am sure. So I was just 
interested in seeing your playbook and what you do, because we 
need some of that. I am not saying stop it there, but we need 
it in some parts of where I cover also.
    Ambassador Jacobson. I think that in the end there are 
lessons learned that go both ways. And I am going to turn this 
over to Beth who has the experience of the AID programs, but 
from my experience working both on the INL programs, the 
narcotics and law enforcement programs, and with AID, there are 
a couple of things that we know work quite well.
    Quite honestly, the biggest overall focus has to be getting 
into the communities, not staying in police headquarters and in 
the cities and the central government. We know that model 
police precincts work. When we go into the communities putting 
in 24-hour courts and police precincts in the communities and 
getting their buy-in, we know that crime rates have gone down 
in those places.
    We know that borrowing solutions from U.S. cities where 
things have worked--anti-gang programs in L.A., some in areas 
of Chicago, in Boston, have worked. These are some of the same 
gangs and some of the same solutions. But we also know that 
buy-in from the communities on community centers and training 
for young people and anti-gang programs that focus on women can 
work because these are often female-headed households. So some 
of those models that have worked on a small level have to be 
scaled up, and that is where we are focusing.
    Ms. Kelly of Illinois. Okay.
    Ms. Hogan. Yes, I would like to add to that. In terms of a 
playbook we really do think we have a model that can be taken 
to scale, and that model as Roberta just suggested was 
developed in concert with those cities whereby we have seen 
gang violence actually go down. In fact we are using the tools 
from the L.A. government, state government, in terms of 
focusing in on who are the young people in these communities 
that are most at risk for joining gangs. Rather than having 
sort of a broad based plan, we are trying to single and narrow 
in on those who don't have mentors, don't have parents at home, 
are idle, are out of school. I mean there is a whole series of 
criteria that helps us get at the ones that are the most 
vulnerable.
    Secondly, we have also learned that a place based strategy 
is the most effective way to go, and by that I mean we go in 
along with INL, together, and we look at a community, not just 
at the community level but really block by block in terms of 
understanding where is the most serious crime happening and 
then how do we engage the community in developing crime 
reduction strategies? How do we engage the religious community, 
the business community, municipal governance community, and 
parents? And they have come up with these security plans for 
their communities that create safe spaces. Simple things like 
lighting and painting. A community center can really help quite 
a bit.
    And so that is why we have seen that when we apply these 
tools to these communities and compare it against very similar 
communities where we are not working we see great reductions in 
the crime levels in those communities. So this is a model that 
works and we are very eager to take it to scale.
    Ms. Kelly of Illinois. And I support you greatly.
    I just wanted to ask a question about Haiti as it pertains 
to health efforts, health, literacy and educating the most 
vulnerable populations in Haiti on health resources and 
wellness options. What do you feel are the greatest barriers 
you are seeing on the health front?
    Ms. Hogan. Actually we are seeing great progress in the 
health sector in Haiti and we are very encouraged by it. Every 
5 years they conduct a demographic health survey, and we have 
seen just last year the latest survey has revealed that 
malnutrition for children under five is going down. Infant 
mortality is going down. Vaccination rates are going up. We 
have the advantage of a very strong Minister of Health in 
Haiti.
    And so along with the World Bank, we are trying to help 
them develop their systems in such a way that we can get out of 
the direct service delivery role that we have been in in Haiti, 
forever, and channel our resources through that Ministry. But 
we are going to do it very carefully, very cautiously, but we 
think that that is the way that we can create the kind of 
sustainability that Haitian institutions need. And I say we are 
starting in the Health Ministry because that is where we see 
the greatest potential.
    Ms. Kelly of Illinois. Are there any investments we should 
specifically be making? Is there any----
    Ms. Hogan. Yes, in fact we run, we pay for 168 clinics 
across the country and through those clinics we reach up to 50 
percent of the population. That is what we want to turn over. 
Also we are working in the Ministry to improve their health 
information systems, their procurement systems, and their 
hiring systems so that they can become a modern, transparent, 
and accountable Ministry. And as I say, we are blessed in all 
of the changes that have happened in Haiti with the cabinet 
membership changing almost on a 6-month basis, we have had the 
same Minister of Health over the last 5 years and we are very, 
very happy about that.
    Ms. Kelly of Illinois. Thank you. And thank you, Madam 
Chair.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Kelly.
    And I am always proud to say my good friend Mr. Castro.
    Mr. Castro. Thank you, Madam Chair, and thank you for you 
all's testimony today. Between 2011 and 2014, foreign aid, U.S. 
foreign aid to Latin America and the Western Hemisphere went 
down by $400 million. The President has proposed increasing aid 
to Central America this year by $1.14 billion. And as I 
mentioned last year, I think that drop in $400 million, well, I 
don't blame the administration. I think it is also Congress, 
but we were essentially robbing Peter to pay Paul.
    And so let me ask you a question I have asked before about 
Central America. I want to ask about Mexico. What are we doing 
to help Mexico combat all of the tragedies that are going on 
there now? There is a caravan going through the United States 
right now for the 43 students who were murdered in a small town 
there, and over the last several years hundreds of Americans 
have gone into Mexico and have been killed. My colleague 
Filemon Vela from Brownsville who represents Texas/Mexico 
border region has been on a crusade to get the United States 
Government to take a stronger part in doing something about 
this. So please.
    Ambassador Jacobson. Thank you very much, Congressman. And 
I think this is an incredibly important subject having worked 
on the Merida Initiative for a number of years now. I think we 
and the Mexican Government really thought in some ways that our 
engagement, our initiative with them would be shorter lived 
than it was; that some of the problems we needed to tackle 
would be overcome more quickly. But it is clear that the 
problems they are tackling are very deep and embedded. And the 
43 students in Iguala, I think, and the tragedy of their 
disappearance are a tragedy in and of themselves, but they are 
also a broader tragedy and that is why they had such resonance 
in Mexico for a system that still has not delivered justice to 
people.
    So we see, I think, a response by the Mexican Government in 
terms of changes in whether it is the attorney general, changes 
in moving forward more aggressively on the transformation of 
the judicial system, which we are deeply involved in working 
with them on from an inquisitorial system to an oral 
adversarial system which is much more transparent, much 
quicker, fewer cases go to trial and that is very important 
because not everything must go to trial in terms of minor 
offenses, and fewer people being held in pretrial detention. As 
my colleague knows, in the states where USAID has worked on 
this kind of a transformation, Chihuahua and Nuevo Leon, the 
conviction rates have gone up and the pretrial detention rates 
have gone down.
    So those are the kinds of things we need to continue to do, 
but it is a very, very difficult problem. And I think it is 
important that we remain engaged, and that is what the request 
level does. It focuses on moving on the Federal efforts that we 
have made to state levels which are critical. As you know, 
Mexico is a Federal system as we are, and while there may be 
40,000 or so Federal police, there are over 400,000 state and 
local police in Mexico. And unless we work with the Mexicans on 
those levels as well, we can't really get at some of the 
problems going on there. And we feel that the Mexican 
Government is really ready for us to help in that level too.
    Mr. Castro. What does the budget do with respect to Mexico?
    Ambassador Jacobson. $119 million for this year is on the 
Merida Initiative alone.
    Mr. Castro. Is that an increase or a decrease from the last 
few----
    Ambassador Jacobson. I believe it is a decrease this year. 
But we also know that Mexico is coming in over 10 times. It is 
usually about 13 times the amount that we put into the security 
area. So we believe that it will be sufficient to do the things 
we want to do, remembering also that we don't do sort of big 
ticket equipment items with Mexico. It is training and its 
personnel and things of that nature which we get a fair amount 
of bang for our buck in those funds.
    Mr. Castro. Sure. Thank you.
    Ms. Ros-Lehtinen. Thank you so much. We will go to a second 
round of questions for anyone who has them.
    Assistant Secretary Jacobson, although I have questions on 
Venezuela and closed society I wanted to ask you about 
something that just happened. The Treasury Department, their 
Office of Foreign Assets Control, OFAC, has just inexplicably 
removed approximately 60 Cuba related individuals and entities 
from its Specially Designated Nationals List. Why were these 
individuals and entities removed from that list?
    Ambassador Jacobson. In the first instance I would really 
have to direct the question to the Treasury Department since I 
am not sure exactly what you are referring to. I know that over 
periods of time Treasury does review its Specially Designated 
Nationals List for people who may have been deceased or 
otherwise no longer be active or eligible for that. They may 
have left Cuba, they may be deceased. There may be reasons that 
people fall off that list, but I just don't know in this case. 
I am sorry. We will have to check with Treasury.
    Ms. Ros-Lehtinen. Yes. This says Agencia de Viajes Guama 
Bal Harbour Shopping Center that is in Miami-Dade County, my 
area; another tour company from Bal Harbour; another tour 
company Bal Harbour; Kol, K-O-L, Investments Inc., Miami, 
Florida; Travel Services, Inc., Hialeah, Florida, in my 
congressional district.
    And what I get the feeling is that as in the first round of 
questions that I had posed to you that we have ordered this 
review of whether Cuba should be included or not, keep, and the 
state sponsor of terrorism, and it is a foregone conclusion 
that review is whether--I know we are still going through it. 
The conclusion is let us remove Cuba from the list and how do 
we go about it?
    Well, gosh darn it, we have all these laws, so what we do 
is we no longer consider FARC to be a terrorist organization. 
We no longer consider JoAnne Chesimard a wanted terrorist no 
matter what the FBI says. We have to change all of these 
classifications because we get the verdict first and then the 
trial. The verdict is Cuba is off the state sponsor of 
terrorism list so how do we gain this up, how do we gain this 
up to make it happen?
    Here is just yet another example of how we do it. Companies 
that were in the Specially Designated Nationals List, 60 of 
them, just got wiped out. No explanation needed because know 
whoever is in front of us will say, ask the other guys. And 
then when we get that guy they will say, I don't know, ask 
someone else.
    But the dominoes are lined up and you just have to flick 
one and you will see it happening. We already know what the 
verdict is. It is just a matter of when will we announce it. Do 
you suspect that the announcement will be made when we sing 
Kumbaya in the April summit in Panama?
    Ambassador Jacobson. I don't know when any decision on the 
state sponsor of terrorism list will be made because obviously 
that is a decision, a recommendation that will go from the 
Secretary of State to the President. So I don't know exactly 
when that will be made. We are now about 2 weeks from the 
Summit of the Americas, so I am not sure exactly when that will 
be done and whether we are not conducting the review 
necessarily with that calendar sort of affecting us. Obviously 
we are taking the time we need to get it done properly.
    Ms. Ros-Lehtinen. Sure. The problem is you don't have a 
partner in that because Cuba is making it exceedingly difficult 
for you to label them with the good housekeeping seal of 
approval.
    There was just another shipment, and we talked about the 
North Korea shipment. But there was another one as you know 
that was, the last one was under sugar, this one was cereal, 
and you name it and it was in that shipment. But nothing ever 
seems to matter. It doesn't matter what Cuba does, they will 
get that stamp.
    But anyway moving on to Venezuela, many of us were relieved 
that finally the administration sanctioned eight Venezuelan 
officials for human rights violations based on the law that we 
passed, and we thank Senators Rubio and Menendez for their 
work, and Mr. Cruz, on the Senate side. However, given the fact 
that the Obama administration has given a lifeline to the 
Castro regime, should we prepare for the administration to take 
the same approach and provide a lifeline to Maduro? His economy 
is spiraling downward.
    I don't know what Cuba merited, I don't know how it merited 
to get this olive branch other than free a totally innocent man 
who they held illegally for 5 years. So should we prepare that 
maybe the administration will be easing off on Maduro?
    Ambassador Jacobson. Well, I think, Madam Chair, I would 
say that from some of the commentary I have seen around the 
Hemisphere, some people think we just gave Maduro a lifeline, 
since the reaction to the sanctions has been fairly negative, 
and allowed him unfortunately to proliferate his narrative that 
this is about the U.S. and Venezuela. And it is not.
    Ms. Ros-Lehtinen. And before we sanctioned it what was his 
narrative?
    Ambassador Jacobson. Well, it has always been that.
    Ms. Ros-Lehtinen. Correct.
    Ambassador Jacobson. You are exactly right.
    Ms. Ros-Lehtinen. Okay, so it doesn't matter what we do.
    Ambassador Jacobson. And he uses any excuse.
    Ms. Ros-Lehtinen. Right.
    Ambassador Jacobson. Right.
    Ms. Ros-Lehtinen. So then we should not do the right thing 
because it will----
    Ambassador Jacobson. No, no. Absolutely. And that is our 
argument with many of our allies and colleagues around the 
Hemisphere that we in fact are not the problem. The problem is 
Venezuelans need to talk to Venezuelans.
    Ms. Ros-Lehtinen. I am banned from going to Nicaragua. What 
did I do to Nicaragua? Nothing. We found the pull against the 
Venezuelan human rights violators. Bad guys don't need an 
excuse, so we should continue to do the right thing.
    Ambassador Jacobson. So I don't think at this point--what 
we have always said is that we are prepared to have a dialogue 
with Venezuela. We obviously continue to have diplomatic 
relations with them, but we also have made very clear that 
there was a dialogue with the opposition last year, there were 
some agreements that were reached on things the government 
needed to do and the government didn't complete its side of the 
bargain. Instead, Leopoldo Lopez is still in jail, Antonio 
Ledezma has now been put in jail, elections are coming up.
    Ms. Ros-Lehtinen. Just like in Cuba, dissidents are still 
in jail, but in Cuba it is a different approach. I just want to 
make sure that we shouldn't prepare for any changes in U.S. 
policy. Cuba did not change. U.S. has changed. But Cuba still 
continues to repress its citizens and jail opposition leaders, 
wouldn't you say? Catch and release.
    Ambassador Jacobson. Certainly there has been in continued 
short term detentions, yes.
    Ms. Ros-Lehtinen. Okay.
    And Ms. Hogan, as the situation further deteriorates in 
Venezuela the people there need our help more than ever, but 
the administration's request for Venezuela for next year and 
years past has remained virtually the same. How can we justify 
it, sort of a flatline request for democracy and governance in 
Venezuela as the situation deteriorates yet the request remains 
the same?
    Ms. Hogan. Right. Well, of course as you know what we are 
requesting is resources to support civil society organizations. 
There is a limited number of those organizations, but we will 
continue to provide the kind of support that allows them to 
document human rights abuses, to report them, to press for 
protection of civil society leaders.
    We are also working to break the information blockade, if 
you will, and help these organizations get access to 
independent media and also to publicize what is happening in 
Venezuela, and then finally to press for citizen-led reforms 
and strengthening their ability to do that. We think that the 
amount of resources that we have available is about right to 
continue to support their efforts, and there are very brave 
people that are doing very important work under very difficult 
circumstances.
    Ms. Ros-Lehtinen. Indeed, thank you. And thank you to the 
committee members for their indulgence. And just one more area. 
On closed societies, USAID has been kicked out of closed 
societies in Latin America, Bolivia, and Ecuador, for example, 
and has now become so concerned that it will be expelled from a 
country that it has become timid. Do you worry about that?
    I met with Nicaraguan civil society activists that Mr. 
Sires referred to, last week, and they told us that USAID is so 
worried about being kicked out of Nicaragua that programs have 
been curtailed and some are being used to actually support the 
Sandinista regime according to them. So what is the point of 
this Latin America and Caribbean Bureau at USAID if we do not 
want to fulfill the democracy and governance obligation? Is 
USAID getting too timid to perform its duties? Should we 
channel that money to NED or DRL, groups that are not afraid of 
working in closed societies?
    Ms. Hogan. Thank you for that question. In fact we are 
increasing our request for democracy and governance resources 
in Nicaragua as well as in Central America. But in Ecuador, 
even though we no longer have a presence in Ecuador, we have 
asked for and received resources so that we can continue to 
support civil society organizations. And we are also supporting 
municipal level leadership and the engagement between municipal 
leaders and the civil society actors who are now learning and 
practicing democratic principles at the local level.
    So I would say quite the contrary. We stand with civil 
society in closing political spaces. We will continue to do so. 
And our resource request as you will see is for more resources 
to do that kind of thing.
    Ms. Ros-Lehtinen. Thank you so much. Thank you to both, and 
thanks to the members for their time. Mr. Sires is recognized.
    Mr. Sires. Thank you, Madam Chair.
    I have to agree with my colleague. I think this is a 
foregone conclusion that Cuba is going to be removed from the 
terrorist list, otherwise I don't see how you are going to be 
able to negotiate anything. Because they haven't changed. They 
haven't stopped doing anything. I mean the ship that they just 
caught off Cartagena, Colombia, it is just amazing to me that 
they just continue doing the same thing without any 
consequences.
    And I am concerned also, the Caribbean Basin Securities 
Initiative was cut, right, on this budget? That was part of it. 
The Merida Initiative was cut. The Colombia Strategic 
Development Initiative was cut. I am concerned. Are they still 
insisting on you giving up Guantanamo with all the cuts that we 
are making over here?
    Ambassador Jacobson. We haven't discussed Guantanamo.
    Mr. Sires. We haven't.
    Ambassador Jacobson. No.
    Mr. Sires. Are we discussing any monetary assistance to 
Cuba, currently?
    Ambassador Jacobson. No.
    Mr. Sires. To the Cuban Government in terms of your 
negotiations with Cuba?
    Ambassador Jacobson. No.
    Mr. Sires. Because I know they wanted money because they 
said the embargo hurt them.
    Ambassador Jacobson. Well, no. I mean what I should say is 
obviously at some point in the future we will have to have a 
conversation about claims, on claims that have been filed 
against the Cuban Government, judgments on terrorism. They have 
said that when we sit down to talk about claims they are 
probably going to raise their lawsuits that they have tried to 
pursue for damages vis-a-vis the embargo. So I expect they will 
raise those things, but we haven't had those conversations yet. 
We haven't had them about claims yet, set up a process for that 
nor had them raise anything on the damages issue.
    Mr. Sires. How close is the FARC in Colombia to getting an 
agreement?
    Ambassador Jacobson. Well, I think that the Colombians and 
the FARC continue to have rounds of peace talks. They have made 
significant progress on the five areas that are under 
discussion, but there are really hard issues yet to go. I think 
President Santos continues to remain very much engaged and very 
committed to moving forward with that. I think he believes that 
the FARC also is interested and he hopes, understands that this 
is the way out. That it is time to come to peace but there are 
still tough issues to be concluded.
    Mr. Sires. When Secretary Kerry was before us I raised the 
concern that we have an observer, supposedly, in the 
negotiations.
    Ambassador Jacobson. We have a Special Envoy now in the 
process.
    Mr. Sires. A Special Envoy.
    Ambassador Jacobson. Right.
    Mr. Sires. I get concerned that we have an envoy and that 
if things don't work out they could actually blame the person 
that we put there and say, look, the Americans again are being 
obstructionists and trying to interfere in our sovereignty. And 
I worry about that. I don't see why we have to put, I mean this 
is between the FARC and Colombia.
    Ambassador Jacobson. It is true.
    Mr. Sires. And I don't see why we have to meddle into this.
    Ambassador Jacobson. But we did that at the express request 
of President Santos.
    Mr. Sires. Well, he may wanted to see if the negotiations 
fail he may have alternative reason to----
    Ambassador Jacobson. I think we took him at his word that 
he felt that it would be of use to him in our support for the 
Colombian Government to have somebody there to support him and 
to help the process.
    Mr. Sires. Well, we have been supporting Colombia, making 
them strong, training them.
    Ambassador Jacobson. Yes. Yes.
    Mr. Sires. So I don't think our support has wavered.
    Ambassador Jacobson. No, that is correct.
    Mr. Sires. So I mean to have somebody in there, to me that 
is just typical what happened in history. People will always 
say Americans are always trying to meddle into our sovereignty. 
And, well, I guess they know better than I do, but I just don't 
see it as a positive.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Sires.
    And thank you, Mr. DeSantis, and you are recognized for as 
much time as you would like to consume.
    Mr. DeSantis. Thank you.
    Secretary Jacobson, in your opinion have human rights 
abuses in Cuba increased since the President announced his 
change in policy in December?
    Ambassador Jacobson. In my opinion they have continued. The 
number of short term detentions has been fairly high. And I 
don't know whether there has been an increased number of those 
detentions over the last 3 months, but it has been high over 
the last year.
    Mr. DeSantis. The Cuban dissidents and people promoting 
democracy in Cuba, they believe that it has increased. Are you 
familiar with some of the statements that they have made?
    Ambassador Jacobson. I am. There has also been some 
indication, although not enough to really give us a full set of 
data that there have been more people engaging in some of the 
activities of peaceful protest or dissidents.
    Mr. DeSantis. I think the fear from the dissidents is that 
because of this new posture between the United States and the 
Castro Government, that it provides additional legitimacy that 
the government actually undercuts their ability to fight for a 
democratic future for Cuba, and I think a lot of them believe 
that very passionately. So what is your response to them?
    Ambassador Jacobson. Certainly my response to them would be 
that that is no way the intention nor will we, well, we will 
speak out every time there are such detentions. We have spoken 
out. It is our goal to support the Cuban people with this 
policy including those human rights figures and dissidents. We 
don't believe that over time this will be something that will 
result in increased repression against the dissidents, and the 
human rights dialogue is part of what we are going to be having 
with the Cuban Government.
    Mr. DeSantis. Well, I think if it does fortify the regime 
which is a fear of many of us, then I think that it will lead 
to continued repression. I guess part of the frustration, this 
goes beyond your portfolio, but I think we have seen in other 
areas, so for example with Iran and the desire to kind of have 
this rapprochement with Iran and so we don't bring up the 
terrorism. We don't really want to talk about some of these 
things.
    Ayatollah Khomeini said death to America, indeed, the other 
day, and that was just viewed by the White House as oh, that is 
just domestic political, don't worry about that. Well, when 
Prime Minister Netanyahu said something about the infeasibility 
of two states given the environment that was viewed as a 
hanging offense.
    And so I just worry that when there is a desire to kind of 
have some type of an agreement or change direction that that 
change kind of takes precedent over speaking out for people who 
are fighting for democracy. I think we made a big mistake in 
2009 when we had a chance to support people in Iran. And I know 
it is tricky because when the United States, as you mentioned 
they can use that against us, but I do think that that is 
something that is concerning.
    Let me ask you this. With the new change in policy, if 
somebody travels to Cuba and stays in a hotel that had been a 
private hotel that had been seized by the government after the 
Cuban Revolution, are they allowed to use a credit card to stay 
there and pay for that?
    Ambassador Jacobson. To the best of my knowledge, the 
change in the use of credit cards is under the authorized 
categories, the 12 categories, and I would have to check on the 
regulations in terms of Americans using credit cards. Obviously 
the credit card companies are allowed to operate, but I have to 
check on the exact restrictions of whether people are allowed 
to use credit cards on American banks, for example, in Cuba.
    Mr. DeSantis. Because I think current statutory law 
prevents any type of financing arrangements involving property 
that had been seized.
    Ambassador Jacobson. Well, certainly, and that is why I 
need to check on this----
    Mr. DeSantis. Whether a credit card qualifies to finance a 
stay and----
    Ambassador Jacobson. Right, which is Treasury's specifics 
and OFAC's, but I can certainly check that for you.
    Mr. DeSantis. Let me just echo my colleague from Florida 
about our response in Venezuela. Look, we are going to be the 
bad guy no matter what with Maduro. That is the game he has 
played. That is the game that Chavez played. We need to stand 
up for these people who are fighting repression and we have to 
be unambiguous about that. We have to have moral clarity. And I 
would like to see a stronger response. I know my colleague has 
wanted a stronger response, and I know that we had worked on 
legislation and by the time that passed I know that we didn't 
think that that was as good as we needed to be. But I would 
just say stand with those people. They are fighting the good 
fight and we need to stand with them.
    I notice just in the request that there is a request for 
$75.5 million for foreign climate change programs. And if you 
go down, the budget justification for that describes Mexico as 
a ``global leader'' in combating global climate change, but 
then it proposes to spend $6 million on helping Mexico fund the 
enhancing capacity for low emissions development strategies and 
$6.5 million to support policy for the prevention of 
deforestation and degradation to address climate change.
    But my question is if Mexico is such a global leader, then 
why would this assistance be necessary? Couldn't that money be 
spent better doing something else? If a country is doing as 
well as is said in the justification, then why should the 
taxpayer have to subsidize it?
    Ms. Hogan. Thank you for that question. Indeed we do have a 
program on climate change in Mexico to do the kinds of things 
that you have talked about, because Mexico is not only an 
emitter of greenhouse gases, I think it is the 12th in the 
world, it also is emerging as a leader to show the rest of the 
developing world what is possible in terms of changing their 
economies to a point where they can invest in clean energy.
    So one of the things that we partner with them on is, for 
example, a clean energy tech challenge whereby we provide seed 
funding to entrepreneurs who come up with marketable ideas for 
growing a green business. For example, one such company is a 
company that is taking agricultural waste and turning that into 
briquettes that can then be used as a low-cost renewable fuel.
    So those are the kinds of things that we are trying to 
encourage. Those are the kind of models that we think other 
countries can adopt and we support that leadership role that 
Mexico is taking in doing just that.
    Mr. DeSantis. So you think the funding is justified because 
you have seen positive results in some of the resources that we 
have provided to them?
    Ms. Hogan. That is correct.
    Mr. DeSantis. So are these ideas, are they then, once we 
provide money are they used to where it is a self-sustaining 
business that no longer requires any subsidies?
    Ms. Hogan. That is correct.
    Mr. DeSantis. Okay. Because we have done some of these 
subsidies here domestically and there were some big problems 
with some of those companies.
    Well, I appreciate you guys coming to testify, and I yield 
back to my friend.
    Ms. Ros-Lehtinen. Thank you so much, Mr. DeSantis. And we 
thank our witnesses for being here. And if I could reiterate 
the subcommittee chairman's request and our request as well for 
the documentation, thank you. And with that the subcommittee is 
adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]
                                     

                                    
                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
